r

,

ri »—\

in

n
, t

1
IN THE SUPREME COURT OF THE UNITED STATES ~

■_J

Lw. ia----

1

Supreme Court U.S.
FILED

ANTHONY A. PATEL,

) U.S. Supreme Court Case

2 2 2021

)
OFFICE OF THE CLERK

Plaintiff and Appellant,

)

vs.

) United States Court of Appeals for the
) Ninth Circuit Case: No. 19-56285
)

PATRICIA MILLER; et al.

)

Defendants and Appellees.

) U.S. District Court for Central District
) of California (Los Angeles) Case
) Number: 2:19-cv-00080-CBM-AFM

On Petition for a Writ of Certiorari to
The U.S. Court of Appeals for The Ninth Circuit
Denial of panel rehearing and en banc review
(dated: November 3, 2020)

PETITION FOR WRIT OF CERTIORARI

Anthony A. Patel
553 N. Pacific Coast Hwy.,
Suite B-522
Redondo Beach, CA 90277
Phone: (424) 350-0123
Fax: (310) 943-3829
Email:tony@tonypatel.com
Plaintiff and Appellant
In Propria Persona
l
Petition for Writ Certiorari

RECEIVED
MAR 2 5 2021
•FFICE OF THE CLERK
SUPREME COURT. U.S.

QUESTIONS PRESENTED FOR REVIEW
1.

Do the federal civil rights laws passed for the benefit

of Americans of African descent after the U.S. Civil War also
apply with equal force and effect to Americans of Asian descent?
2.

May a federal appeals court summarily affirm a case

prior to the filing of opening briefs on the merits of the appeal?
3.

Can a State or Territory of the United States forcibly

misdiagnose an individual U.S. Citizen as suffering a mental
disorder due to his/her desire to run for elected public office?
4.

Is running for elected office in our society today a

mental disorder which requires treatment and medical care?
5.

Is a forced State-mandated misdiagnosis of mental

illness and denial of equal protection based on an individual’s
race, creed, color or ethnicity a legally cognizable claim for relief
in federal court under the federal civil rights laws?
6.

Do judges and lawyers acting under color of State law

violate the rights of a U.S. Citizen who is peacefully engaged in
the political campaign process?
7.

Can a State medical doctor or State public health

entity refuse to amend an individual’s incorrect medical records?
8.

May lawyers and judges rely on erroneous health

records in order to deprive an individual citizen of due process?
9.

Are Americans better off now in 2021 from California

government’s misdiagnosis of appellant as suffering the bipolar
mental illness of understanding both sides of the political aisle?
10.

Is it a mental illness for a lawyer to aspire to work in

public service of Articles I & II of the United States Constitution?
2

Petition for Writ Certiorari

LIST OF PARTIES
Plaintiff and Appellant
ANTHONY A. PATEL, individual

Defendants-Appellees (parties appearing in district court and not
voluntarily dismissed heretofore by plaintiff)
Individuals: Patricia Miller; Gregory Hendey; Johanna Klohn;
Atilla Uner; Charles Robinson; John C. Mazziotta; Lynne
McCullough; Janet Napolitano; Douglas Nies; and Lukas
Alexanian.
Public Entities: UCLA Health Information Management Service
(Regents of California)
Private Entities: BUTER BUZARD FISHBEIN & ROYCE LLP;
BLANK ROME; NEMECEK & COLE; MCLA PSYCHIATRIC
GROUP; WASSER, COOPERMAN & MANDLES, PC; LAW &
BRANDMEYER LLP; JAFFE AND CLEMENS; DeCarolis
Family Law Group, LLP and Trope Fein, LLP; Greenberg
Traurig LLP; SCHMID & VOILES; SILVER LAW GROUP;
LEWIS BRISBOIS BISGAARD & SMITH LLP; BOREN, OSHER
& LUFTMAN LLP; and MEYER OLSON LOWY & MEYERS.

3
Petition for Writ Certiorari

CORPORATE DISCLOSURE STATEMENT
I, Anthony A. Patel, do hereby certify that, to my
knowledge, there are no publicly-held companies or corporations
as interested entities or persons to list in this Statement, except
for the parties in this case.
The State of California and the State Bar of California are
interested parties as it relates to all of the Defendants/Appellees.

DATED: March 22, 2021
Anthony A. Patel
Plaintiff and Appellant
In Pro Per

4

Petition for Writ Certiorari

LIST OF PROCEEDINGS

Anthony A. Patel vs. Patricia Miller et al., United States
Court of Appeals for the Ninth Circuit, Case Number: 19-56285.
Date of Entry of Order Denying Petition for Rehearing and
for Rehearing and Review En Banc: November 3, 2020.
Date of Entry of Order Summarily Affirming Judgment of
the District Court: June 25, 2020.

Anthony A. Patel vs. Patricia Miller et al., United States
District Court for the Central District of California, Docket Case
Number: 2:19-cv-00080-CBM-AFM.
Date of the Entry of District Court’s Order Dismissing All
Claims in Civil Case (With Prejudice) and the Date of the
Appealable Order: October 4, 2019.

5

Petition for Writ Certiorari

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

2

LIST OF PARTIES

3

CORPORATE DISCLOSURE STATEMENT

4

LIST OF PROCEEDINGS

5

TABLE OF CONTENTS

6

TABLE OF AUTHORITIES

•

7

JURISDICTIONAL STATEMENT

8

LEGAL ISSUES IN THIS CASE

9

STATEMENT OF FACTS

10

STATEMENT OF CASE

11

REASONS IN SUPPORT OF WRIT

12

ARGUMENT

13

CONCLUSION

15

APPENDIX:

17

Order of U.S. Court of Appeals for the Ninth Circuit
(November 3, 2020)
Order of U.S. Court of Appeals for the Ninth Circuit
(June 25, 2020)
Order of the U.S. District Court (Central District of California)
(October 4, 2019)

6
Petition for Writ Certiorari

TABLE OF AUTHORITIES
Page
Case Law
Bush v. Gore, 531 U.S. 98 (Dec. 12, 2000)

9

Texas v. Pennsylvania et al., 592 U.S.___ (Dec. 11,2020)

9

United States v. Hooton, 693 F.2d 857 (9th Cir. 1982)

9, 14

Court Rules
Rules of The United States Supreme Court
Rule 10

13

Rule 12

13

Statutory Law
42 U.S.C. § 1983

9

42 U.S.C. § 1985

9

Constitutions and Treatises
U.S. Declaration of Independence

passim

United States Constitution

passim

Article I

passim

Article II

passim

Article III

passim

Bill of Rights (Amendments 1 & 5)

9

Tenth Amendment

12

Fourteenth Amendment

9

Governing International Legal Principles
Universal Declaration of Human Rights

9

United Nations Charter

9

7
Petition for Writ Certiorari

JURISDICTIONAL STATEMENT
The jurisdiction of the U.S. Supreme Court is proper as this
petition for certiorari stems from a case in a federal appeals court
(the Ninth Circuit). The Court of Appeals denied a petition for
rehearing and full en banc review in this matter on November 3,
2020 (the original disposition order was entered June 25, 2020
and summarily affirmed the lower U.S. district court).
Under this Court’s current extended deadlines during the
Covid-19 pandemic, the deadline to file this instant petition for a
writ of certiorari is 150 days. This certiorari request stems
directly from denial of the rehearing and denial of en banc review
of the highest federal appeals court on November 3, 2020. Thus,
the Supreme Court’s final jurisdiction is customary and proper.
The underlying trial court matter in the U.S. district court
is based upon federal civil rights violations and civil RICO
claims, both of which are actionable in federal district court as a
tribunal of first resort. Because subject matter jurisdiction in the
federal district court was properly invoked, the appeal to the
federal appeals court (the Ninth Circuit) was also appropriate.
The original case stems from appellant’s request that
California state actors amend his medical records. The appellant
complained that State actors refused to correct his records and
were conspiring with lawyers and judges in California to destroy
appellant’s life and career. Lower federal courts ignored Patel’s
self-evident and unalienable natural right to life, liberty and
pursuit of happiness. The Ninth Circuit also passed and lacks
interest. Hence, appellant cannot work, succeed or be productive.
8
Petition for Writ Certiorari

LEGAL ISSUES IN THIS CASE
The U.S. Court of Appeals for the Ninth Circuit is not
interested in this case. The Ninth Circuit did not allow briefs to
be filed and summarily affirmed in favor of California. The
suggestion that Patel might be more intelligent than people who
are in charge in California is too much for the Ninth Circuit to
bear — rather, the Ninth Circuit, prefers to allow States to
misdiagnose intellect as illness as the official position of U.S.
Courts. However, this U.S. Supreme Court has the final say.
The principal legal issues in this case include the following:
United States v. Hooton, 693 F.2d 857, 858 (9th Cir. 1982).
Bush v. Gore, 531 U.S. 98 (Dec. 12, 2000).
Texas v. Pennsylvania et al., 592 U.S.

(Dec. 11,2020).

Federal civil rights: 42 U.S.C. § 1983 and 42 U.S.C. § 1985.
Fourteenth Amendment to the U.S. Constitution.
First and Fifth Amendments to the U.S. Constitution
Due Process Clause of the U.S. Constitution.
Equal Protection Clause of the U.S. Constitution.
U.S. Declaration of Independence (as interpretive text
underlying Preamble and specific text of the U.S. Constitution).
Inherent power to control proceedings per Article III of the
U.S. Constitution. Judicial Power of the United States under the
U.S. Constitution to ensure States comply with the supremacy of
Articles I and II of the U.S. Constitution.
Supremacy Clause under the U.S. Constitution.
Universal Declaration of Human Rights (UDHR).
United Nations Charter (1945).
9
Petition for Writ Certiorari

STATEMENT OF FACTS
Appellant Anthony A. Patel (“Patel”) asked California and
its government agencies to correct his erroneous medical records.
Rather than spend a few minutes and fix the erroneous health
records Defendants caused, State agents acting under color of law
conspired with lawyers and judges to ruin Patel’s career and life.
The question is whether Americans of Asian descent enjoy the
same rights as Americans of African descent to be free from
discrimination and prejudices by State actors under color of law.
In this case, Patel (a lawyer) hoped to run for elected office
and improve our current laws to work better for all Americans.
The powers-that-be in California did not like his views and
background, so he was forcibly misdiagnosed by the State as
mentally ill (without consent) in 2013. He submitted a request to
amend records in 2019 so that he might be able to work and be
productive in society. However, the State denied him and instead
conspires with lawyers, judges and government agencies to
improperly use these trumped-up false State health records.
Defendants suggest that Americans are better off because
Patel (then a Bipolar Democrat in 2013) did not run for Congress
in 2014. However, the ensuing 8 years show how ludicrous
California’s position now seems to be. Indeed, a lawyer who
works with both partisan sides and shares dual perspectives on
issues can very much benefit his (or her) fellow citizens. But,
California classifies intellect as bipolar mental disorder. The
Ninth Circuit also doubts the legitimacy of President Trump’s
voters (contrary to President Biden’s Inaugural 2021 Address).
10
Petition for Writ Certiorari

STATEMENT OF CASE
In case 2:19-cv-00080-CBM-AFM , Patel sued California
state agents in 2019 for refusing to correct his involuntary
mental health records. Patel was rebuffed by the bureaucratic
California power structure (eerily reminiscent of the former
Soviet Union). The district court then had no real interest in this
case because Patel also sued several law firms and conspirators
of the State. Hence, the district court agreed with the conspiring
lawyers that Patel should be treated as “bipolar” and suffers
illness of having better legal judgment than California judges.
The case was dismissed (with prejudice) on October 4, 2019.
On appeal, the Ninth Circuit took the similar dim view that
States have no obligation to correct false medical records. The
Ninth Circuit did not even bother to hear briefing, because the
federal appeals court relied on the incorrect health records. This
alleged disorder from which Patel suffers affected many in public
service over the past 245 years, but none were singled out for this
harsh mistreatment based on a desire to serve his/her nation.
Patel’s requests for en banc review and rehearing in the
Ninth Circuit were also ignored. However, in order to emphasize
a key legal principle for the “mentally ill” Patel, the Ninth Circuit
rebuked Patel in this case on Election Day. November 3. 2020
(emphasis added). The message from the Ninth Circuit was
duly received by Patel and is now thus being presented to this
United States Supreme Court for further action: Per the Ninth
Circuit, Article III now supersedes Articles II and I of the U.S.
Constitution (i.e. the framers misnumbered in the 1780s).
11
Petition for Writ Certiorari

REASONS IN SUPPORT OF WRIT
The Ninth Circuit today misconstrues our constitutional
structure. In the U.S. legal system, the law since July 1776
emanates from the American People, not from lawyers or judges.
Tenth Amendment, U.S. Constitution. But, in the jurisdiction of
the Ninth Circuit, applicable law apparently originates from
lawyers and judges who themselves decide how and what their
subjects (citizens) should think, how they should feel, etc.
Unlike many other minorities, Patel had no personal
animus for President Trump. Rather, even for former Democrats
like Patel, Mr. Trump legitimately represented the views of
almost half of Americans on Election Day 2020. Understanding
two bipolar perspectives on November 3, 2020 is not a mental
illness that a State can issue against one of its citizens.
Because Patel is a minority, California expects him to act
like other minorities and hold views that are similar to his race,
class, ethnicity and ancestry. Judges in the jurisdiction of the
Ninth Circuit refuse to conform to facts and reality, relying
instead upon their own subjective beliefs.
The Ninth Circuit cannot be permitted to dismiss President
Trump’s voters without a brief or hearing any more than the U.S.
Supreme Court can dismiss President Clinton’s voters in 2000
without hearing their grievances. Neither partisan side has a
monopoly on absolute truth since 1776 - a fact well-understood
by President Lincoln and President Kennedy, each of whom paid
with their lives for the freedom that that judges in the Ninth
Circuit enjoy to err on Election Day, November 3, 2020.
12
Petition for Writ Certiorari

ARGUMENT
Appellant asks this Court to grant this writ of certiorari
because the issues are of substantial importance. Supreme Court
Rules 10 and 12. This writ concerns the misdirected mindset of
the U.S. Court of Appeals for the Ninth Circuit (judges who are
living in their own alternate reality on November 3, 2020). The
rights that are guaranteed to Patel are derivative of the meaning
of our nation and existence as a society since July 4, 1776.
Like the federal district court in this case (who simply
could not fathom Patel suing aristocrats at big law firms and
complaining about local judges), the federal appeals court
departed from the customary and usual norms of law practice.
The Ninth Circuit is having trouble understanding that the law
derives from the people in lieu of a law school board rooms.
The Supreme Court is the final arbiter on whether Article
III of the U.S. Constitution (like Articles I and II) belong to the
American People (as a whole) rather than to bar associations and
law schools alone. The district court in California has already
weighed in and does not care. The federal appeals court could not
even be bothered to take a pro se litigant like Patel seriously.
The supervisory power of the United States Supreme Court
is required over the U.S. Court of Appeals for the Ninth Circuit
and for all inferior tribunals, starting from the 49 justices and on
down to local courts. The Ninth Circuit misunderstands and
disrespects our nation’s history of 245 years. All Americans will
suffer if the Supreme Court of the United States fails to intervene
and protect people from incompetent lawyers and inept judges.
13
Petition for Writ Certiorari

The legal position of the Ninth Circuit in this case involves
one citation which does not allow courts to simply dismiss cases
because they do not like the reality presented by the facts of life.
United States v. Hooton, 693 F.2d 857, 858 (9th Cir. 1982). The
Defendants in this case had no legal arguments or merits to
dismiss Patel’s case at the pleadings stage in the district court.
But, nevertheless, the case was dismissed merely because the pro
se citizen Patel is mislabeled as mentally ill and is not taken
seriously in courts in California. The Ninth Circuit has continued
this abuse upon learning of Patel’s bipolar support for President
Trump and President Obama. However, bipolar Americans (as a
Nation) superseded and elected President Biden on Nov. 3, 2020.
In this case, Patel has been singled out for mistreatment.
His federal civil rights and RICO claims were never taken
seriously at the district court. Further compounding the abuse
was the Ninth Circuit which just dismissed the case outright
without briefing. If it was that easy to dismiss the entire point of
America for the past 245 years, perhaps the powerful British
military would have figured it out during the Revolutionary War.
Americans have survived through generations by their
belief in the Preamble of our Nation in the U.S. Constitution.
Judges at the Ninth Circuit do not follow the law and cannot
handle reality on November 3, 2020. They abrogate Articles I and
II of the U.S. Constitution. The full en banc Ninth Circuit bench
(49 justices) now expects this U.S. Supreme Court to follow its
footsteps. Indeed, the Ninth Circuit seems to be voting on
November 3, 2020 for a packed Supreme Court with 13 justices.
14
Petition for Writ Certiorari

CONCLUSION
This writ petition may be asking too much of the United
States Supreme Court: to rule in favor of an unknown pro se
pauper versus the Ninth Circuit. It may appear “mentally ill” to
ask the Supreme Court to entertain such a petition for certiorari.
However, this writ is presented in good faith based on the
need for the Supreme Court to intervene in the Ninth Circuit.
The federal appeals circuit is biased, partisan and challenged in
its judgments of reality. Their mindset is outdated and predates
Election Day 2016 - as illustrated by the unanimous vote of 49
justices against supporters of President Obama and President
Trump on Election Day 2020. It is almost as if the last 12 or 13
years never happened in the Ninth Circuit. These 49 judges may
still be upset that President George W. Bush was ever placed into
office per the U.S. Supreme Court. And this bias taints impartial
judgment, prejudicing the judicial mind against all U.S. citizens.
It may indeed be asking too much for the United States
Supreme Court to intervene in this pro se in pauperis case.
But, President Biden has asked for a lot from all Americans
on January 20, 2021. Armed with Vice President Harris by his
side, he has asked us to put our democracy first in fighting this
awful pandemic and the enormous human and financial toll that
this national crisis has taken on all of us over the past year.
President Trump also demanded a lot from citizens on
January 20, 2017. He demanded us not to submit to foreign
powers hostile to America’s interests. He demanded citizens not
give up on 245 years of our historic journey together since 1776.
15
Petition for Writ Certiorari

President Obama expected a lot from each individual on
January 20, 2009 and January 20, 2013, respectively. His
audacity pushed us to meet the enormous challenges ahead while
fulfilling America’s original promise of hope and opportunity for
each American. He inspired Americans to reach heights that
previously seemed unimaginable for many in our history.
President George W. Bush requested a lot from Americans
on January 20, 2001 and January 20, 2005, respectively. He
campaigned to cultivate America’s innate sense of good and to
foster our inherent values. He forced us to recover instantly from
the most significant attack on U.S. soil (9/11/01) since Pearl
Harbor 1941. He stayed the course and on message during very
difficult and often unforgivably challenging times for our Nation.
So, thus, it could be asking too much for this Supreme
Court to intervene in favor of a pro per litigant and against the
government, lawyers and judges in the Ninth Circuit. But,
President Biden has asked a lot of our country. President Trump
demanded a tremendous amount from all citizens. President
Obama expected a lot from all individuals. And President George
W. Bush requested a lot from us Americans. And, therefore,
asking for a lot from this U.S. Supreme Court stems directly from
all four of these executives. Certiorari in this case derives from
the historic bipolar rulings of this United States Supreme Court
on December 12, 2000 and December 11, 2020.
DATED: March 22, 2021
_________—->§#30
Anthony A. Patel
Plaintiff and Appellant
In Pro Per
16
Petition for Writ Certiorari

. \

APPENDIX

17
Petition for Writ Certiorari

Order of U.S. Court of Appeals for
9th Circuit
(November 3, 2020)

APPENDIX TO PETITION FOR WRIT OF CERTIORARI

